                               U.S. ELECTION ASSISTANCE COMMISSION
                                        OFFICE OF INSPECTOR GENERAL
                                      1225 New York Ave. NW - Suite 1100
                                            Washington, DC 20005




                                                                                   April 28, 2008



Christopher W. Dentel
Inspector General
Office of Inspector General
Consumer Product Safety Commission
4330 East-West Highway Room 419
Bethesda, Maryland 20814

Dear Mr. Dentel:

        Enclosed is our report on the external quality control review of the Office of Inspector
General, U.S. Consumer Product Safety Commission audit function. We conducted this review
in accordance with the President’s Council on Integrity and Efficiency guidelines and discussed
the review with you on April 4, 2008.

       You provided comments on the draft report’s findings and recommendations and
described actions taken or planned that satisfy the intent of the report recommendations. We
considered the comments when preparing the final report and no further comments are required.
Your response to the draft report is included as Appendix B; excerpts are incorporated into the
relevant sections of the report.

       We appreciate the professionalism and cooperation extended by your staff during our
review. If you have any questions, please contact me at (202) 566-3125.


                                                            Sincerely,


                                                            Curtis W. Crider
                                                            Inspector General

Enclosure
                                                                                        Enclosure


                     UNMODIFIED OPINION REPORT
             U.S. CONSUMER PRODUCT SAFETY COMMISSION
                    OFFICE OF INSPECTOR GENERAL

       We have reviewed the system of quality control for the audit function of the Office of
Inspector General (OIG), U.S. Consumer Product Safety Commission (CPSC) in effect for the
year ended September 30, 2007. A system of quality control encompasses an OIG’s
organizational structure and the policies adopted and procedures established to provide it with
reasonable assurance of conforming with generally accepted government auditing standards
(GAGAS). The elements of quality control are described in GAGAS, promulgated by the
Comptroller General of the United States. The design of the system, and compliance with it in all
material respects, are the responsibility of the CPSC OIG. Our objective was to determine
whether the internal quality control system was adequate as designed and complied with to
provide reasonable assurance that applicable auditing standards, policies, and procedures were
met. Our responsibility is to express an opinion on the design of the system and the CPSC OIG’s
compliance with the system based on our review.

        Our review was conducted in accordance with the guidelines established by the
President’s Council on Integrity and Efficiency and the Executive Council on Integrity and
Efficiency. In performing our review, we obtained an understanding of the system of quality
control for the CPSC OIG. In addition, we tested compliance with the CPSC OIG’s quality
control policies and procedures to the extent we considered appropriate. These tests included the
application of the CPSC OIG’s policies and procedures on selected audits. Because our review
was based on selective tests, it would not necessarily disclose all weaknesses in the system of
quality control or all instances of lack of compliance with it. Nevertheless, we believe that the
procedures we performed provide a reasonable basis for our opinion.

        Because there are inherent limitations in the effectiveness of any system of quality
control, departures from the system may occur and not be detected. Also, projection of any
evaluation of a system of quality control to future periods is subject to risk that the system of
quality control may become inadequate because of changes in conditions, or because the degree
of compliance with the policies or procedures may deteriorate. Our objective, scope, and
methodology are provided in Appendix A.

        In our opinion, the system of quality control for the audit function of the CPSC OIG in
effect for the year ended September 30, 2007, has been designed to meet the requirements of the
quality control standards established by the Comptroller General of the United States for a
Federal Government audit organization and was complied with during the year ended to provide
the CPSC OIG with reasonable assurance of conforming with applicable auditing standards,
policies, and procedures.

       We noted, however, conditions that warrant your attention though they did not impact our
opinion. These matters are described in the Findings and Recommendations that follow.

                                                1
                          FINDINGS AND RECOMMENDATIONS

        GAGAS requires that audit documentation be appropriately detailed to provide a clear
understanding of its purpose and source and the conclusions reached. GAGAS further requires
that auditors: be free from impairments to their independence and consider risks due to fraud.
CPSC OIG’s policies and procedures address the importance of audit documentation and provide
guidance for preparation, which are important to ensure compliance with GAGAS. We reviewed
both audits issued during fiscal year 2007 and found one or more areas in both audits where
documentation was insufficient to support facts and conclusions presented in the audit reports.
In addition we identified financial audit reporting deficiencies. Because of the small size of the
CPSC OIG, we are making a general recommendation that the CPSC OIG use outside parties to
perform the referencing (quality assurance function) on each of its audits.

Finding 1: Audit Documentation

        GAGAS 4.03 requires that for financial audits that the work be adequately planned, that a
sufficient understanding of internal control be obtained, and that sufficient competent evidentiary
matter be obtained to afford a reasonable basis for the opinion regarding the financial statements
under audit.

       During our review of the Fiscal Year 2006 financial statement audit, we noted that
improvement is needed in the areas of documentation of audit planning, materiality
determinations, risk assessments, assessment and testing of internal controls, sampling,
substantive testing, compliance testing, and reporting.

Recommendation: Ensure that CPSC OIG staff understands the importance of preparing and
retaining audit documentation to support the auditor’s significant judgments and conclusions.

Recommendation: Ensure that CPSC OIG follow the requirements for the performance of the
audit and the documentation requirements of the GAO/PCIE Financial Audit Manual when
conducting the financial audit.

Recommendation: The CPSC OIG should consider either contracting the annual financial audit
out to an Independent Public Accounting firm or hiring sufficient personnel to perform the audit.

Views of CPSC OIG

CPSC OIG indicated that a new auditor was being hired with substantial federal financial
auditing experience. In addition the Inspector general will re-emphasize the importance of audit
documentation in general and following the performance and documentation requirements of the
GAO/PCIE Financial Audit Manual when conducting the financial statement audit.

EAC OIG Evaluation of CPSC OIG’s Views

Management actions planned are responsive to the recommendations.



                                                2
Finding 2: Financial Audit Report

       AU § 508.08 requires that the auditor’s report be signed and dated. Furthermore, if
comparative financial information is presented in the report, the report must be modified to
express an opinion on the comparative financial data unless the data is not audited.

         The auditor’s report for the Fiscal Year 2006 financial statement audit was not signed,
not dated, and was not modified to provide an opinion on the comparative data presented in the
financial statements. The comparative data had been previously audited by the CPSC OIG.
When the CPSC OIG provided the auditor’s report to the CPSC, the report included a transmittal
letter that was dated and signed by the Inspector General. However, when the auditor’s report
was published in the CPSC annual performance and accountability report the transmittal letter
was not published.

Recommendation: The CPSC OIG should modify its financial audit reports to include the
required information.

Views of CPSC OIG

The CPSC OIG indicated that the next financial report will include the required information.

EAC OIG Evaluation of CPSC OIG’s Views

Management actions planned are responsive to the recommendation.

Finding 3: Documentation of Auditor Independence

        GAGAS 3.03 states, “In all matters relating to the audit work, the audit organization and
the individual auditor, whether government or public, should be free both in fact and appearance
from personal, external, and organizational impairments to independence.” The CPSC OIG
requires that each auditor prepare an independence certification on an annual basis certifying that
they are not aware of any conflicts or situations that might impair their ability to audit or conduct
other CPSC OIG activities independently.

        We found no independence certificates for fiscal year 2007. CPSC OIG management
said that the independence certifications had been completed in 2007 but when the 2008
certifications were received, they threw out the 2007 certifications.

Recommendation: Ensure that independence certifications are properly maintained.

Views of CPSC OIG

The CPSC OIG indicated that the certifications of independence will be maintained for three
years and stored in the auditor’s personnel file.

EAC OIG Evaluation of CPSC OIG’s Views

Management actions planned are responsive to the recommendation.
                                              3
Finding 4: Documentation of Fraud Risks

        For financial audits, GAGAS 4.18 states, “AICPA [American Institute of Certified Public
Accountants] standards and GAGAS require auditors to assess the risk of material misstatements
of financial statement amounts or other financial data significant to the audit objectives due to
fraud and to consider that assessment in designing the audit procedures to be performed.” For
performance audits, GAGAS 7.22 states, “Auditors should also be aware that assessing the risk
of fraud is an ongoing process throughout the audit and relates not only to planning the audit but
also to evaluating evidence obtained during the audit.”

        During our review of both audits, we noted that the consideration of fraud during the
planning and during the conduct of the audit was not documented. Discussion with the auditor
indicated that fraud was considered in the planning of the audits and was a focus throughout both
audits.

Recommendation: Ensure that consideration of fraud during audit planning and conduct of the
audit is documented in the audit working papers.

Views of CPSC OIG

The Inspector General will re-emphasize the importance of audit documentation, including the
documentation of the consideration of fraud during the audit planning and conduct of the audit.

EAC OIG Evaluation of CPSC OIG’s Views

Management actions planned are responsive to the recommendation.

Finding 5: Audit Report Cross-Referencing

       GAGAS 7.66 for performance audits and 4.22 for financial audits provides that an
experienced auditor should be able to ascertain from the audit documentation the evidence that
supports the auditor’s significant judgments and conclusions. In addition, GAGAS 7.68 states,
“Audit documentation should be appropriately detailed to provide a clear understanding of its
purpose and source and the conclusions the auditors reached, and it should be appropriately
organized to provide a clear link to the findings, conclusions, and recommendations contained in
the audit report.”

       For both of the audit reports we reviewed, the references provided to support statements
were difficult to follow, the working papers referenced either did not support or only partially
supported the statements in the reports, and several sections of the audits were not cross-
referenced to supporting audit documentation. As a result, we had to discuss the audit
documentation in detail with the audit team to ascertain whether reported facts and conclusions
were substantiated.

Recommendation: Ensure that staff adequately indexes the reports to the supporting
documentation.

                                                4
Views of CPSC OIG

The CPSC OIG indicated that thorough indexing of audit reports to the supporting
documentation will be stressed. Report cross indexing will be an area of special interest during
the revision of the CPSC OIG’s system of quality control. The CPSC OIG is considering either
contracting out the referencing function or entering into a MOU with another OIG to accomplish
referencing.

EAC OIG Evaluation of CPSC OIG’s Views

Management actions planned are responsive to the recommendation.




Curtis W. Crider
Inspector General
April 28, 2008




                                               5
                                                                                    Appendix A

Objective, Scope and Methodology

Objective

       We conducted an external peer review of the Consumer Product Safety Commission
(CPSC), Office of Inspector General (OIG). Our objective was to determine whether the CPSC
OIG’s internal quality control system was adequate as designed, and whether it provided
reasonable assurance that applicable auditing standards, policies, and procedures were met.

Scope

       These tests included a review of one of one performance audit reports issued during the
October 1, 2006 through September 30, 2007 semiannual reporting periods. In addition, we
reviewed the financial statement audit covering the FY 2006 financial statements for the
Consumer Product Safety Commission. We performed on-site fieldwork at the CPSC OIG
Headquarters located in Bethesda, Maryland.

Methodology

        We conducted our review in conformity with the standards and guidelines established by
the PCIE and ECIE. We tested the compliance with the CPSC OIG’s system of quality control
to the extent we considered necessary. We used the Guide for Conducting External Peer Reviews
of the Audit Operations of the Inspector General (Guide), April 2005.

       We tested compliance with CPSC OIG’s system of quality control by reviewing one
performance audit report and one financial report.

            1. Audit of Service Contracting issued September 24, 2007

            2. Consumer Product Safety Commission’s Fiscal Year 2006 Financial Statements
               issued November 8, 2006

        Where appropriate, we reviewed audit documentation, training records, and conducted
interviews with staff to determine whether established policies, procedures, and applicable
standards were followed.




                                               6
